                                  IMPROVEMENTS TO THE GSA PRIVACY ACT
                                   PROGRAM ARE NEEDED TO ENSURE THAT
                                  PERSONALLY IDENTIFIABLE INFORMATION
                                      (PII) IS ADEQUATELY PROTECTED
                                     REPORT NUMBER A060228/O/T/F08007

                                                      TABLE OF CONTENTS
                                                                                                                                          PAGE

EXECUTIVE SUMMARY ............................................................................................................. i
  Purpose......................................................................................................................................... i
  Background ................................................................................................................................. ii
  Results-in-Brief ........................................................................................................................... ii
  Recommendations ...................................................................................................................... iii
  Management Comments ............................................................................................................ iv
INTRODUCTION .......................................................................................................................... 1
  Objectives, Scope, and Methodology ......................................................................................... 2
RESULTS OF AUDIT.................................................................................................................... 4
  GSA’s Privacy Act Program Has Not Yet Established Needed Safeguards .............................. 4
        Improved Management Controls Are Needed to Guide the Agency’s Privacy Act
        Program .................................................................................................................. 5
        Privacy Policies and Procedures Have Not Fully Considered PII Maintained Outside of
        Major IT Systems that Collect and Store PII.......................................................... 7
        Appropriate Privacy-Related Clauses Are Needed in All IT Contracts ................. 8
        Role-Based Training Is Necessary to Clarify Privacy Responsibilities ................. 8
  System Vulnerability Tests Revealed Weaknesses in Configuration and Patch Management .. 9
        System Configuration Settings Improvements Are Needed ................................... 9
        Timely Patch Management Could Reduce Security Vulnerabilities ...................... 10
  Implementing Specific Controls for PII Requires Additional Actions ..................................... 10
  Conclusion ................................................................................................................................ 12
  Recommendations ..................................................................................................................... 13
  Management Comments ........................................................................................................... 13
  Internal Controls ....................................................................................................................... 14

                                                              APPENDICES

Appendix A – GSA Data Collection Instrument ........................................................................ A-1
Appendix B – Timeline of GSA Activities Related to Privacy Controls ................................... B-1
Appendix C –Vulnerability Scanning Results ............................................................................ C-1
Appendix D – CHCO/CIO Consolidated Response to Draft Report .......................................... D-1
Appendix E – Report Distribution ............................................................................................... E-1
                       IMPROVEMENTS TO THE GSA PRIVACY ACT
                        PROGRAM ARE NEEDED TO ENSURE THAT
                       PERSONALLY IDENTIFIABLE INFORMATION
                           (PII) IS ADEQUATELY PROTECTED
                          REPORT NUMBER A060228/O/T/F08007

                                   EXECUTIVE SUMMARY

Purpose

The General Services Administration’s (GSA) Chief Human Capital Officer (CHCO) has
primary responsibility for the Agency’s Privacy Act Program, including development and
implementation of privacy data protection policies. The GSA Privacy Act Program is intended
to ensure that the Agency fulfills the requirements of the Privacy Act of 1974, which was
enacted to balance a person's right to privacy with the Federal Government's need for
information to carry out its responsibilities. All Federal agencies are required to establish and
implement comprehensive privacy and data protection procedures governing the collection, use,
sharing, disclosure, transfer, storage, and security of information in an identifiable form relating
to the Agency’s employees and the public. The objective of our audit of the Agency’s Privacy
Act Program was to determine if GSA: (1) manages sensitive personal information pursuant to
legal and regulatory requirements, including e-Government provisions for privacy controls; (2)
has implemented technical, managerial, and operational privacy-related controls to effectively
mitigate risks inherent to Privacy Act systems of records; and (3) has established procedures and
automated mechanisms to verify control efficacy. If not, what additional measures are needed to
improve protection of such sensitive data at GSA?

The E-Government Act of 2002 addresses privacy protections when citizens interact with the
Federal government and was enacted to improve the methods by which government information,
including information on the Internet, is organized, preserved, and made accessible to the public.
Guidance on implementing the E-Government Act of 2002 directs agencies to conduct reviews
of how information about individuals is handled within their agency when they use information
technology (IT) to collect new information, or when agencies develop or buy new IT systems to
handle collections of personally identifiable information (PII). Agencies are also directed to
describe how the government handles information that individuals provide electronically, so that
the American public has assurances that personal information is protected. With the
implementation of the E-Government Act of 2002, agencies are now required to: (1) inform and
educate employees and contractors of their responsibility for protecting information in
identifiable form; (2) identify those individuals in the agency that have day-to-day responsibility
for implementing section 208 of the E-Government Act, the Privacy Act, or other privacy laws
and policies; (3) designate an appropriate senior official or officials to serve as the agency’s
principal contact(s) for information technology/web matters and for privacy policies and
coordinate implementation of Office of Management and Budget (OMB) web and privacy policy
and guidance; and (4) designate an appropriate official (or officials, as appropriate) to serve as
the “reviewing official(s)” for agency Privacy Impact Assessments (PIAs). Additional controls
for electronic files, including those that may contain PII are required to manage increasing risks
in this area.



                                                 i
To improve safeguards for sensitive information maintained across Federal agencies, OMB
issued memorandum M-06-16, Protection of Sensitive Agency Information, on June 23, 2006.
The memorandum stresses that Federal agencies need to take all necessary/reasonable measures
to swiftly eliminate significant vulnerabilities to the sensitive information entrusted to them. It
requires agencies to take certain actions to ensure that safeguards are in place and appropriately
reviewed within 45 days (August 7, 2006) from the issuance of the memorandum. In August
2006, the President’s Council on Integrity and Efficiency (PCIE)/ Executive Council on Integrity
and Efficiency (ECIE) provided a review guide and Data Collection Instrument (DCI) to the
Inspectors General (IG) community for use in assessing compliance with OMB requirements for
securing sensitive data as identified in M-06-16. We assessed GSA’s compliance with OMB M-
06-16 as part of this review, and the completed DCI previously provided to the PCIE and the
CHCO is included in Appendix A 1 .

Background

OMB defines PII as “information which can be used to distinguish or trace an individual's
identity, such as their name, social security number, biometric records, etc. alone, or when
combined with other personal or identifying information which is linked or linkable to a specific
individual, such as date and place of birth, mother’s maiden name, etc. 2 ” Management activities
stress that privacy protection is both a personal and fundamental right of individuals, including
GSA Associates, clients, and members of the public, when personal information is collected,
maintained, and used by GSA organizations to carry out its responsibilities and provide services.
Also, OMB emphasized the need for better protection of PII in OMB Memorandum M-06-16,
issued in June 2006, and OMB Memorandum M-07-16, Safeguarding Against and Responding to
the Breach of Personally Identifiable Information, issued in May 2007. Memorandum M-06-16
stresses the importance of an agency’s baseline of privacy activities and requires that agencies
properly safeguard their assets while using information technology. The memorandum requires
agencies to review their privacy controls against a checklist for protection of remote information
and implement additional controls aimed at increased protection of portable devices.
Additionally, Memorandum M-07-16 requires that agencies develop and implement a breach
notification policy to reduce the risks related to a potential loss of PII or a data breach. The use
of social security numbers (SSNs) in agency systems and programs must also be carefully
reconsidered to identify instances in which collection or use of PII is superfluous. Appendix B
provides a timeline of major milestones related to specific controls required for the protection of
PII.

Results-in-Brief

As the GSA Senior Agency Official for Privacy, the CHCO is responsible for establishing and
overseeing the Agency’s Privacy Act Program and for ensuring compliance with privacy laws,
regulations and related Agency policy. With issuance of a benchmark report, the CHCO has

1
  Due to sensitive information included in Appendix A, this information is provided only to the Offices of the
CHCO and Chief Information Officer.
2
  OMB Memorandum M-07-16, Safeguarding Against and Responding to the Breach of Personally Identifiable
Information, issued May 2007.


                                                         ii
highlighted GSA’s use of information in an identifiable form, identified the Agency’s privacy
and data protection policies and procedures, and required the use of certain technical controls to
protect PII. The Office of the CHCO (OCHCO) has worked with the GSA Chief Information
Officer (CIO), who manages the Agency’s Information Technology (IT) Security Program, to
issue a joint instructional letter which introduces Agency-specific policy and direction for
protecting PII in GSA IT systems, including associated records of that information, such as
printed paper documents or other storage media. GSA also recognizes the need to eliminate
unnecessary use of social security numbers in IT systems. However, while improvements have
been made to the GSA Privacy Act Program, key components are not yet in place to ensure that
PII is adequately protected from inappropriate access or modification. The Privacy Act Program
has not yet ensured that all required privacy controls are in place and operating effectively and
that GSA Associates and contractors are fully aware of key roles, responsibilities, and
accountability for protecting PII across GSA’s IT infrastructure.           Improved management
controls are needed to guide GSA’s Privacy Act Program, including a comprehensive assessment
of the adequacy of existing controls. Additionally, GSA needs to ensure that all IT support
contracts include the appropriate privacy related clauses to ensure that contractors are aware of
restrictions on Privacy Act data and their responsibilities for protecting PII. While the OCHCO
has provided basic privacy awareness training to the majority of GSA Associates and
contractors, role-based privacy training is needed for GSA Associates and contractors who are
responsible for the protection of PII. Further, vulnerability scans performed on a sample of
GSA’s major IT systems that collect and store PII revealed that software security patches have
not been consistently and promptly applied, leaving these systems vulnerable to known security
weaknesses. In response to evolving requirements aimed at improving the protection of PII,
including remote access to and transportation and storage of PII, GSA has taken steps to better
protect PII; however, further action is needed to ensure that shared goals for preventing,
detecting, and/or recovering from a PII security breach are established and achieved to manage
escalating risks in this area.

Recommendations

To better manage risks of unauthorized or unintentional disclosure of personally identifiable
information (PII), we recommend that the Chief Human Capital Officer:

   (1) Develop an implementation plan for the Privacy Act Program which identifies key roles,
       responsibilities, milestones, and management performance measures to achieve long-term
       improvement goals.
   (2) Work closely with the Chief Information Officer to establish collaborative agency-wide
       procedures to:
           (a)    Ensure that the Privacy Act Program is integrated with the Agency’s security
                  program and assesses risk with and identifies controls for all PII, including PII
                  residing outside of major IT systems.
           (b)    Periodically assess the need for and potential uses of automated content
                  management and data leakage tools or other procedures to assist in identifying
                  and protecting PII within GSA’s IT and system environment.




                                               iii
           (c)     Confirm that required security hardening guides are being followed and that
                   vulnerabilities are promptly recorded and mitigated for major IT systems that
                   collect and store PII.
           (d)     Implement remaining privacy controls required by M-06-16, including
                   encryption and two-factor authentication for systems maintaining PII.
           (e)     Develop a plan that includes the key activities, milestones, and performance
                   measures necessary to guide GSA in discontinuing the collection and storage
                   of social security numbers in IT systems where no longer required.
   (3) Work with the Office of the Chief Acquisition Officer to review contracts in support of
       major IT systems that collect and store PII to ensure that the appropriate privacy clauses
       have been included and that contractors supporting GSA’s IT systems that collect and
       store PII are aware of and fulfill their roles and responsibilities for protecting GSA’s PII.
   (4) Complete development and implementation of role-based training for GSA Associates
       and contractors who are responsible for protecting sensitive information, including PII.

Management Comments

The CHCO and CIO provided consolidated management comments on March 28, 2008 on
specific audit findings and recommendations in response to our draft report. The comments
indicate a general concurrence with our audit findings and recommendations, and a copy of the
comments is included as Appendix D. The CHCO and the CIO agreed with our recommendation
to develop an implementation plan for the Privacy Act Program which identifies key roles,
responsibilities, milestones, and management performance measures to achieve long-term
improvement goals. Management also acknowledged the need to do more to protect PII and
identified planned actions to meet audit recommendations.      Management comments indicate
that the CHCO will work closer with the OCIO to ensure that hardening guides are being
appropriately applied and that the CHCO is working with the Office of Procurement
Management Review, Office of Acquisition Integrity to randomly audit Privacy Act systems to
ensure that the proper FAR clauses are included. In response to our recommendation to
implement remaining privacy controls required by OMB Memorandum M-06-16, management
comments provided additional information on the status of two of the three remaining
requirements. The response also stated that GSA was unaware of a technical means to log all
computer-readable data extracts from databases holding sensitive information and verify that
each extract including sensitive data has been erased within 90 days or its use is still required.
While management comments explained that some manual processes are being used in a limited
capacity to support this requirement, we reaffirm the importance of determining an automated
method to implement this control.

Management comments highlight activities recently completed and planned related to our
recommendation to develop a plan that includes key activities, milestones, and performance
measures necessary to guide GSA is discontinuing the collection and storage of SSNs in IT
systems where no longer required. In response to our recommendation to complete development
and implementation of role-based training for GSA Associates and contractors responsible for
protecting sensitive information, including PII, management comments discuss goals to begin
role-based training and highlight a 95% completion rate of the Privacy Awareness training over
the past year. Management comments in response to our recommendation to assess the need for



                                                iv
and potential uses of automated content management and data leakage tools or other procedures
to assist in identifying and protecting PII within GSA’s IT and system environment explain that
the OCIO is currently evaluating data leakage prevention tools to assist in identifying and
protecting PII within GSA’s IT and system environment. While evaluating automated content
and data leakage tools is a first step toward better protecting PII stored outside of IT systems that
maintain Privacy Act data, our audit found that the Privacy Act Program has not yet ensured that
PII stored on laptops and servers or in databases or applications that are not considered part of a
major IT system is identified and protected as needed. Over the past year we identified
numerous instances where PII stored outside of major IT systems was placed at undue risk.
Therefore, we reaffirm the need to better ensure that all PII in GSA’s IT systems environment be
identified and properly protected from unauthorized access, modification, and disclosure.




                                                 v
                         IMPROVEMENTS TO THE GSA PRIVACY ACT
                          PROGRAM ARE NEEDED TO ENSURE THAT
                         PERSONALLY IDENTIFIABLE INFORMATION
                             (PII) IS ADEQUATELY PROTECTED
                            REPORT NUMBER A060228/O/T/F08007

                                           INTRODUCTION

The Office of Management and Budget (OMB) has defined personally identifiable information
(PII) as “information which can be used to distinguish or trace an individual's identity, such as
their name, social security number, biometric records, etc. alone, or when combined with other
personal or identifying information which is linked or linkable to a specific individual, such as
date and place of birth, mother’s maiden name, etc.” Information systems containing PII can be
either electronic or manual. Various laws and regulations address the need to protect sensitive
information held by government agencies, specifically the Privacy Act of 1974 (and revisions),
the E-Government Act of 2002 [including the Federal Information Security Management Act
(FISMA)], and related OMB circulars and memoranda.

In January 2003, the General Services Administration (GSA) Office of Inspector General (OIG)
Information Technology (IT) Audit Office issued a report 3 on controls for the General Services
Administration’s (GSA) privacy data. At that time, we found that: (1) controls for GSA’s
sensitive data needed to be more robust to adequately address risks in an automated business
environment; (2) roles and responsibilities for protecting Privacy Act data from unauthorized
disclosure may not have been effectively communicated; (3) online security training required for
GSA Associates and contractors in 2002 did not cover Privacy Act requirements or restrictions
on unauthorized disclosures of personal information entrusted to those who work with sensitive
files; (4) GSA IT service contracts did not state the need to protect Privacy Act data and failed to
specify restrictions or penalties for unauthorized disclosures; (5) periodic review of web server
content would strengthen controls to prevent improper disclosure of Privacy Act data on GSA
web servers located outside the firewall, as well as those accessible within GSA; and (6) the list
of Systems of Records was not up-to-date and comprehensive. We recommended that the Chief
People Officer (CPO) 4 work closely with the Chief Information Officer (CIO) to improve the
management of GSA’s Privacy Act data by: (1) coordinating with the Office of Acquisition
Policy to ensure that appropriate Privacy Act requirement clauses are included in IT support
contracts utilized by GSA and that roles and responsibilities for the protection of sensitive data
are made explicit for contractors entrusted with such data, (2) updating GSA’s Systems of
Records list, and (3) ensuring that accountability and responsibility is assigned for identifying
and implementing specific controls for each of GSA’s Systems of Records.

In January 2006 5 , we completed an implementation review of management actions taken on the
three recommendations in the 2003 audit report. We found that management had taken actions
in accordance with the time-phased action plan provided in response to our 2003 report;

3
  Review of Controls for GSA’s Privacy Act Data, Report Number A020256/O/T/F03005, dated January 6, 2003.
4
  The GSA CPO was officially renamed the Chief Human Capital Officer (CHCO) in October 2006.
5
  Implementation Review of Controls for GSA’s Privacy Act Data, Report Number A020256/O/T/F03005, dated
January 6, 2003, Assignment Number A060045, dated January 18, 2006.


                                                     1
however, conditions raised in the initial report remained. Contracts for two of the three systems
we reviewed did not include appropriate Federal Acquisition Regulation (FAR) clauses for
Privacy Act systems, and GSA’s list of Privacy Act systems, maintained by the Office of the
Chief Human Capital Officer (OCHCO), was still not complete. Further, clear roles and
responsibilities for GSA Associates and contractors were not yet established across GSA, and
training had not been provided to ensure that responsible individuals were aware of requirements
for protecting GSA Privacy Act data.

Objectives, Scope, and Methodology

The objective of our review of the Agency’s Privacy Act Program was to determine if GSA: (1)
manages sensitive personal information pursuant to legal and regulatory requirements, including
e-Government provisions for privacy controls; (2) has implemented technical, managerial, and
operational privacy-related controls to effectively mitigate risks inherent to Privacy Act Systems
of Records; and (3) has established procedures and automated mechanisms to verify control
efficacy. If not, what additional measures are needed to improve protection of sensitive data?
We gathered information related to actions that GSA has taken to protect PII prior to and in
response to OMB Memorandum M-06-16 and considered recently developed Agency policy
regarding the protection of sensitive information. We considered the Agency’s mandatory on-
line privacy training, information disseminated through the Privacy Act Program internal and
external websites, and an Information Paper on the actions taken by GSA to meet the
requirements of M-06-16. We also reviewed a GSA report responding to OMB Memorandum
M-06-20 and Section 522 of the Transportation, Treasury, Independent Agencies, and General
Government Appropriations Act, 2005. We interviewed appropriate staff from GSA’s OCHCO
and OCIO with key responsibilities for ensuring the protection of PII. We also provided input
based on the audit work completed during this review for the OIG response to privacy questions
as part of its annual reporting on FISMA for fiscal year (FY) 2007 6 .

During audit survey, we reviewed security documentation for seven major IT systems that collect
and store PII, including analyzing the security plans for GSAJobs, the Excluded Parties List
System (EPLS), the System for Tracking and Administering Real-Property (STAR), and the EDS
e-Travel System (EDS), and the risk assessments for the STAR, FedBizOps (FBO), the Carlson
Wagonlit e-Travel System (CWGT), and the Northrup Grumman Mission System e-Travel
System (NGMS) against the National Institute of Standards and Technology (NIST) Guide for
Developing Security Plans for Information Technology Systems, Special Publication (SP) 800-
18 and the NIST Risk Management Guide for Information Technology Systems SP 800-30,
respectively. We also reviewed Privacy Impact Assessments for FBO, the Federal Procurement
Data System – Next Generation (FPDS-NG) and STAR for adequacy. During audit fieldwork,
we interviewed system security officials, examined system privacy and security documentation,
and used commercially available tools and agreed upon procedures to complete network security
scanning and examine database configuration for three of GSA’s major IT systems that collect
and store PII – STAR, FBO, and CWGT. Web application security scanning was also performed
on FBO. Automated techniques were used to verify the degree of implementation of GSA’s


6
 FY 2007 Office of Inspector General FISMA Review of GSA’s Information Technology Security Program, Report
Number A070108/O/T/F07015, dated September 17, 2007.


                                                    2
hardening guides, and we tested NIST SP 800-53 controls related to privacy, selecting a subset
of controls from eight of the 17 control families.

To assess managerial, operational, and technical PII controls for the Privacy Act Program and for
the three systems tested, we relied on applicable statutes, regulations, policies, and operating
procedures, such as: the GSA Information Technology Security Policy, CIO P 2100.1D, June
2007; GSA Privacy Act Program, CPO 1878.1, October 2003; Conducting Privacy Impact
Assessments (PIAs) in GSA, CPO 1878.2, May 2004; Safeguarding Personally Identifiable
Information, CIO IL-06-02, August 2006; Federal Information Processing Standards Publication
(FIPS PUB) 199, Standards for Security Categorization of Federal Information and Information
Systems, February 2004; FIPS PUB 200, Minimum Security Requirements for Federal
Information and Information Systems, March 2006; NIST SP 800-53, Recommended Security
Controls for Federal Information Systems, February 2005; NIST SP 800-60, Guide for Mapping
Types of Information and Information Systems to Security Categorization Levels, June 2004;
Public Law 107-347, E-Government Act of 2002; OMB Circular A-130, Management of Federal
Information Resources, November 2000; the Privacy Act of 1974; the Federal Information
Security Management Act of 2002; and the GSA CIO’s IT procedural guides on password
generation and protection, managing enterprise risk, access control, media sanitization, and
auditing and monitoring. We also referenced OMB Memorandum M-06-16, Protection of
Sensitive Agency Information, June 23, 2006; OMB Memorandum M-03-22, OMB Guidance for
Implementing the Privacy Provisions of the E-Government Act of 2002, September 2003; OMB
Memorandum M-03-18, Implementation Guidance for the E-Government Act of 2002, August
2003; OMB Memorandum M-06-19, Reporting Incidents Involving Personally Identifiable
Information and Incorporating the Cost for Security in Agency Information Technology
Investments, July 2006; and OMB Memorandum M-06-15, Safeguarding Personally Identifiable
Information, May 2006.

We conducted this performance audit work in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives. The scope of our work did not
assess the accuracy and integrity of the data within the three Privacy Act systems tested or
consider controls for paper-based Systems of Records 7 .




7
 According to the Privacy Act of 1974, a “System of Record” is a group of any records under the control of any
agency from which information is retrieved by the name of the individual or by some identifying number, symbol,
or other identifying particular assigned to the individual.


                                                        3
                                     RESULTS OF AUDIT

As the GSA Senior Agency Official for Privacy, the CHCO is responsible for establishing and
overseeing the Agency’s Privacy Act Program and for ensuring compliance with privacy laws,
regulations and related Agency policy. With issuance of a benchmark report, the CHCO has
highlighted GSA’s use of information in an identifiable form, identified the Agency’s privacy
and data protection policies and procedures, and required the use of certain technical controls to
protect PII. The OCHCO has worked with the GSA-CIO, who manages the Agency’s IT
Security Program, to issue a joint instructional letter which introduces Agency-specific policy
and direction for protecting PII in GSA IT systems, including associated records of that
information, such as printed paper documents or other storage media. GSA also recognizes the
need to eliminate unnecessary use of social security numbers in IT systems. However, while
improvements have been made to the GSA Privacy Act Program, key components are not yet in
place to ensure that PII is adequately protected from inappropriate access or modification. The
Privacy Act Program has not yet ensured that all required privacy controls are in place and
operating effectively and that GSA Associates and contractors are fully aware of key roles,
responsibilities, and accountability for protecting PII across GSA’s IT infrastructure. Improved
management controls are needed to guide GSA’s Privacy Act Program, including a
comprehensive assessment of the adequacy of existing controls. Additionally, GSA needs to
ensure that all IT support contracts include the appropriate privacy related clauses to ensure that
contractors are aware of restrictions on Privacy Act data and their responsibilities for protecting
PII. While the OCHCO has provided basic privacy awareness training to the majority of GSA
Associates and contractors, role-based privacy training is needed for GSA Associates and
contractors who are responsible for the protection of PII. Further, vulnerability scans performed
on a sample of major IT systems that collect and store PII revealed that software security patches
have not been consistently and promptly applied, leaving these systems vulnerable to known
security weaknesses. In response to evolving requirements aimed at improving the protection of
PII and other sensitive information, including remote access to and transportation and storage of
PII, GSA has taken steps to better protect PII; however, further action is needed to ensure that
shared goals for preventing, detecting, and/or recovering from a PII security breach are
established and achieved to manage escalating risks in this area.

GSA’s Privacy Act Program Has Not Yet Established Needed Safeguards

GSA’s Privacy Act Program is intended to ensure that the Agency fulfills the requirements of the
Privacy Act of 1974 and provides privacy and data protection procedures governing the
collection, use, sharing, disclosure, transfer, storage, and security of information in an
identifiable form relating to the Agency’s employees and the public. However, improved
management controls are needed to guide GSA’s Privacy Act Program, including a
comprehensive assessment of the adequacy of existing controls. Further, policies and procedures
established with the Privacy Act Program have not fully considered PII that may be maintained
across GSA’s broader IT system environment, including PII stored outside of major IT systems
that collect and store PII. Additionally, GSA needs to ensure that all IT support contracts include
the appropriate privacy related clauses to ensure that contractors are aware of restrictions on
Privacy Act data and their responsibilities for protecting PII. While basic privacy awareness
training has been provided to all GSA Associates and contractors, role-based training for



                                                4
specialized job functions that handle PII, such as Human Resource Specialists and Payroll
Specialists, is needed. This training would help ensure that all individuals with significant
responsibilities related to PII are informed of risks and that required controls for the protection of
Privacy Act information are in place and operating as intended.

Improved Management Controls Are Needed to Guide the Agency’s Privacy Act Program

Within GSA, primary management control responsibilities for protecting sensitive information,
including PII, are dispersed among several key officials. The CHCO is the Senior Agency
Official for Privacy, the GSA official responsible for establishing and overseeing the Agency’s
Privacy Act Program and for ensuring GSA’s compliance with privacy laws, regulations and
GSA policy. GSA’s CIO has overall responsibility for the Agency’s IT Security Program and
the IT Capital Planning Program. As such, the CIO develops and implements security controls
for Privacy Act data by reviewing Privacy Impact Assessments (PIAs) that are prepared by GSA
Service and Staff Offices for security considerations for IT systems. The CIO is also responsible
for verifying that the development of PIAs is a part of GSA's IT Capital Planning and Investment
Control Policy. System Authorizing Officials (AOs) also carryout key responsibilities for
securing IT systems under their jurisdiction. Specifically, AOs are responsible for reviewing and
approving PIAs for their organizations and for ensuring that identified Privacy Act systems that
handle privacy data meet information privacy and security requirements. They also review
existing and proposed IT Privacy Act systems in their organizations to assess the need to conduct
a PIA, coordinate the preparation of the PIA with program and system managers, and approve
the PIA for their organizations

Following OMB M-06-15, Safeguarding Personally Identifiable Information, issued May 2006,
the OCHCO, as GSA’s designated Senior Agency Official for Privacy, took steps to review the
Agency’s policies and processes, identify any deficiencies, and take corrective action as
appropriate to ensure it has adequate safeguards to prevent the intentional or negligent misuse of,
or unauthorized access to PII. In August 2006, a joint instructional letter 8 from the GSA-CIO,
who manages the Agency’s IT Security Program, and the CHCO introduced Agency-specific
policy and direction for protecting PII in GSA IT systems, including associated records of that
information, such as printed paper documents or other storage media. This instructional letter
established security requirements beyond those established with GSA’s IT Security Program to
specifically address risks with PII. Also, in August 2006, the OCHCO issued a benchmark
report on GSA’s Privacy Act Program in response to Section 522 requirements within the
Appropriations Act of 2005. The benchmark report discusses GSA’s use of information in an
identifiable form, identifies the Agency’s privacy and data protection policies and procedures,
and requires the use of certain technical controls. This report was provided to OMB as part of
the Agency’s response to specific privacy control questions required with FISMA for FY 2006.
Policies and procedures referenced in the report include controls established with GSA’s IT
Security Program. The Privacy Benchmark Report, however, did not: (1) comprehensively
address the adequacy of the implementation of existing controls in GSA PII systems, including
those established with the Agency IT Security Program; (2) identify deficiencies or improvement
goals for the Privacy Act Program; or (3) develop a plan for improving the existing Privacy Act
Program. A comprehensive agency-wide assessment, as required by M-06-15, is needed for
8
    Safeguarding Personally Identifiable Information, CIO IL-06-02, issued August 2006.


                                                          5
GSA to adequately ensure that required privacy controls have been implemented and that the
controls are operating as intended for both manual and automated systems across GSA.

In September 2007, when responding to specific privacy related FISMA questions raised by
OMB, we completed a qualitative assessment of the Agency's (1) Privacy Impact Assessment
(PIA) process, including adherence to existing policy, guidance, and standards, and (2) progress
to date in implementing the provisions of M-06-15. As part of our assessment, we considered
actions and activities undertaken since the Agency’s 2006 self-review, including the Agency's
policies and processes, and the administrative, technical, and physical means used to control and
protect PII. With our annual 2007 FISMA audit report 9 , we discussed progress made to date,
including GSA’s appointment of a Senior Agency Official for Privacy, completion of the privacy
benchmark report, updates to the IT Security Policy to reflect privacy requirements, and
implementation of a PIA process. We also considered outstanding goals to develop and
implement controls for encryption of PII stored on mobile devices or for accessing PII from
personally owned computers. We concluded that a comprehensive agency-wide assessment of
the adequacy of existing privacy controls for PII, including clarification of primary roles and
responsibilities for verifying the implementation of those controls, is a necessary step in moving
toward common goals and processes for the protection of PII. Our review of contracts for a
sample of IT systems that collect and store PII also found that contracts for systems with PII do
not yet consistently include privacy-related FAR clauses. Further, security related patches have
not been consistently applied to automated systems, leaving some databases vulnerable to known
security threats.

While improvements have been made to the GSA Privacy Act Program with increased controls
for PII, GSA has not comprehensively assessed the adequacy of implementation for existing
privacy controls in GSA PII systems and key roles and responsibilities for verifying the
implementation of those controls have not been documented. To promote the establishment of
improved policies and procedures to manage risk with PII, it is important that GSA clearly
communicate its long-term goals and milestones to guide the Privacy Act Program. While
responsibilities for protecting PII lie with various entities in GSA, a program implementation
plan highlighting key milestones and performance goals and measures is not in place to guide the
various players in implementing GSA’s Privacy Act Program. Accountability is important for
the success of GSA’s Privacy Act Program and should guide a program implementation plan that
will assist with managing and protecting GSA’s PII. A program implementation plan would
further guide coordination amongst key officials responsible for privacy data and ensure these
officials accurately reflect agency-wide privacy policies and procedures. Such a plan would
identify all key players involved in implementing the Privacy Act Program and identify
necessary communication activities and information flows to protect PII. Improved management
controls, including a program implementation plan to guide the Agency’s Privacy Act Program,
are needed to ensure successful coordination of privacy responsibilities at all levels within GSA.




9
 FY 2007 Office of Inspector General FISMA Review of GSA’s Information Technology Security Program, Report
Number A070108/O/T/F07015, dated September 17, 2007.


                                                    6
Privacy Policies and Procedures Have Not Fully Considered PII Maintained Outside of Major IT
Systems that Collect and Store PII

For the FY 2007 timeframe, GSA’s Privacy Act Program identified 18 major IT systems that
collect and store PII. Specific IT controls required for PII include policy stating that employees
shall not remove PII from GSA facilities or access PII remotely unless approved in writing and
that PII shall not be stored on or accessed from personally owned computers or personally owned
mobile devices. GSA’s IT Security Policy also states that PII shall be stored on network drives
and/or in application databases with proper access controls and shall be made available only to
those individuals with a valid need to know and that encryption is required when exchanging PII
via e-mail or when stored on workstations or mobile devices. However, the Privacy Act
Program has not yet ensured that PII stored on laptops and servers or in databases or applications
that are not considered part of a major IT system is identified and protected. Specifically, over
the past year we have identified numerous instances where PII stored outside of major IT
systems was placed at undue risk. Controls for GSA’s Privacy Act data could be more robust to
better address known risks associated with all PII, including PII stored outside of major IT
systems that collect and store PII. Technical controls, such as automated content management
and data leakage technologies are readily available, and the use of such tools to facilitate the
identification or storage of PII across GSA’s entire system environment is currently being
evaluated by the OCIO. Until such tools are provided to system officials responsible for privacy
controls, compensating controls and mechanisms (manual or automated) should be considered to
identify and protect PII stored outside of major IT systems throughout GSA’s IT infrastructure.

Many of the recent OMB Memoranda, including OMB Memorandum M-06-16 and an OMB
Memorandum titled the “Top 10 Risks Impeding the Adequate Protection of Government
Information,” stipulate specific actions that should be taken to protect sensitive information.
While the joint instructional letter issued by the CHCO and the CIO initially was provided to
establish additional policy and direction for protecting PII in IT systems and any associated
record, the current CIO IT Security Policy with updated security requirements does not address
privacy controls for PII that is stored outside of major IT systems. Such controls are needed to
address the risk inherent with PII stored and transmitted across and outside the GSA IT
infrastructure. In September 2007, we identified two privacy control vulnerabilities where we
were able to access social security numbers (SSNs) for several Federal government employees
and owners of sole proprietorship operated businesses on a website accessible through GSA’s
Intranet. Over the past few months, we also discovered that access controls were not adequately
assessed to ensure the appropriate level of protection for databases that contain PII for two
Privacy Act systems using the Business Objects reporting software 10 . In one instance, an
authorized user from a client agency, while utilizing one of the Business Objects reporting tools,
was able to produce a report that displayed over 40,000 employee records containing sensitive
employee data for several agencies, including GSA. We also recently reported 11 to the GSA-
CIO that Lotus Notes databases were developed and implemented without having appropriate
access controls in place to prevent unauthorized access to PII, including date of birth, name, and

10
   The Business Objects utility is a commercial off the shelf product that is used to run queries and reports against
databases.
11
   Alert Report on Security of GSA’s Electronic Messaging Services (GEMS) and National Notes Infrastructure
(GNNI), Report Number A070180/O/T/W07001, dated September 12, 2007.


                                                           7
SSN. The OCIO has begun taking steps to remediate reported vulnerabilities for the Agency’s
Lotus Notes databases; however, these examples, together, demonstrate the need to ensure that
effective controls are in place to better protect PII, including PII that is stored outside systems
designated as major IT systems, from unauthorized disclosure and access and to preserve
authorized access restrictions.

Appropriate Privacy-Related Clauses Are Needed in All IT Contracts

In 2003, we reported the need to place restrictions or penalties on unauthorized disclosures and
for GSA IT service contracts to specifically state requirements to protect Privacy Act data. Since
then, the Office of Acquisition Policy has developed contract clauses in the Federal Acquisition
Regulations (FAR) to cover Privacy Act information. According to the FAR, when the design,
development, or operation of a system of records on individuals is required to accomplish an
agency function, the contracting officer shall insert the following clauses in solicitations and
contracts: (a) The clause at 52.224-1, Privacy Act Notification and (b) The clause at 52.224-2,
Privacy Act. The GSA IT Security Policy, updated in June 2007, states that all GSA contracts
and Request for Proposals (RFP) involving Privacy Act information must adhere to the FAR
Privacy Act provisions and include the specified contract clauses, as appropriate, to ensure that
personal information and the system data are protected as mandated, by contractors who work on
GSA-owned IT systems. However, based on our analysis, IT support contracts for GSA systems
with PII still do not consistently include the required privacy-related FAR clauses. During an
implementation review of the recommendations from our previous report, we analyzed four IT
support contracts for three major IT systems that collect and store PII – the Payroll Accounting
and Reporting (PAR) system, GSAJobs, and the Comprehensive Human Resources Integrated
System (CHRIS) - and found that two of the contracts did not include or reference the requisite
FAR clauses. In 2007, we analyzed IT support contracts for three additional Privacy Act
systems – STAR, CWGT, and FBO. Two of these three IT support contracts did not include or
reference the appropriate FAR clauses related to privacy. We were informed that the Office of
the Chief Acquisition Officer (OCAO) Office of Acquisition Integrity has agreed to work with
the OCHCO Information Resources and Privacy Management Division during FY 2008 to
review a sample of contracts for major IT systems that collect and store PII to verify whether or
not the contracts include the appropriate privacy-related FAR clauses. Without the assurance of
adequate contract provisions for protecting Privacy Act data required for these important
systems, GSA cannot be sure that contractors are aware of restrictions on Privacy Act data and
their responsibilities for protecting PII. Such provisions are also needed to adequately prepare
for a potential PII security breach and to respond effectively as needed to manage the
consequences of unauthorized access to PII, including the threat of identity theft.

Role-Based Training Is Necessary to Clarify Privacy Responsibilities

Tightened IT security and data privacy is intended to better protect sensitive information,
including PII that can be easily transported outside Federal buildings. However, it is essential
that GSA Associates and contractors, who are increasingly relied on and entrusted with access to
Privacy Act data, fully understand the need to safeguard PII and that those with significant
privacy responsibilities agree to protect such sensitive data. While GSA has provided basic
privacy awareness training to the majority of GSA Associates and contractors, this training did



                                                8
not address OMB Memorandum M-06-16 requirements regarding the protection of remote
access, storage, and transportation of PII. Role-based privacy training, which would provide job-
specific and comprehensive information privacy training for all GSA Associates and contractors
directly involved in the administration of personal information, has not yet been provided.
Initially, OCHCO planned to implement role-based privacy training in 2006; however, the
training has been postponed. The OCHCO now plans to begin role-based privacy training in
early 2008. This training is intended to provide best practices for handling and disseminating PII
and will be made available to persons whose jobs require the handling and use of PII, such as
Human Resource Specialists and Payroll Specialists. Without sufficient role-based privacy
training for GSA Associates and contractors responsible for the protection of PII, this sensitive
information may not be adequately protected from unauthorized or unintentional disclosure
and/or modification.

System Vulnerability Tests Revealed Weaknesses in Configuration and Patch Management

We applied commercially available tools, manual techniques, and agreed upon procedures to test
controls for three of GSA's major IT systems that collect and store PII 12 . Testing included
conducting network security scans, examining database configuration, and reviewing web
application security. We found that improvements in system configuration settings and timely
patch management are needed to secure these systems and protect PII. Specific vulnerabilities
for the three major IT systems tested are included in Appendix C. Due to the sensitive nature of
the information contained in this appendix, only reports provided to the Offices of the CHCO
and CIO contain detailed scanning results.

System Configuration Settings Improvements Are Needed

Configuration management provides a structured methodology for applying technical and
administrative changes and monitors the results of changes throughout the resource life cycle.
Configuration management provides assurance that the IT resource in operation is the correct
version (configuration) and changes to be made are reviewed for security implications prior to
implementation. Configuration management helps ensure changes to IT systems take place in an
identifiable and controlled environment and do not unintentionally harm any of the IT resource’s
properties, including its security. Changes to the IT resource have security implications because
they may introduce or remove vulnerabilities and because changes require updating of IT
Security documentation (e.g. contingency plan, risk assessment, etc.), and may impact
accreditation. Configuration management weaknesses were found within the hardware,
software, and database platforms for all three of the GSA major IT systems that collect and store
PII selected for testing. On one of the systems tested, much of the hardware had reached its end-
of-life (EOL) date and is no longer supported by the manufacturer. The operating system and the
database management system (DBMS) could not be upgraded due to compatibility issues, and
many of the latest software patches and security enhancements could not be installed, exposing
the system to many known vulnerabilities. Operating system patches were also needed in
another system to correct outdated and vulnerable mail service software. Unnecessary services
were found on two systems, leaving potential entry points for unauthorized access.

12
  The systems tested during this review were the System for Tracking and Administering Real-Property (STAR),
FedBizOps (FBO), and the Carlson Wagonlit e-Travel System (CWGT).


                                                      9
Configuration weaknesses were also found in one of the web-based applications tested. Two of
these weaknesses provided information that could have assisted an unauthorized user in
performing a malicious attack and allowed users to create weak passwords. Controls should be
in place to ensure that GSA’s systems are appropriately hardened to reduce risk of inadvertent or
unauthorized access to PII.

Timely Patch Management Could Reduce Security Vulnerabilities

Technical scanning conducted on the same three systems indicated that the periodic cumulative
DBMS patches have not been applied in a timely fashion, exposing these systems to numerous
known vulnerabilities. For example, testing conducted on February 26, 2007 revealed that one
of GSA's systems using a Sybase DBMS had not yet applied a cumulative patch released on
April 14, 2006, 10 months after the patch was released. Tests performed on March 15, 2007
indicated that one of GSA's Oracle DBMS-based systems had not yet applied an Oracle critical
update released in July 2005, approximately 20 months after the patch was released. Scans
performed against another GSA Oracle DBMS-based system, performed on April 23, 2007,
indicated that Oracle critical updates released in January 2007 had not been installed and were
scheduled for installation on the production database in October 2007, 10 months after the patch
was released 13 . Timely patch management is needed to mitigate the risk of exposure to known
vulnerabilities and potential unauthorized access to PII in Agency major IT systems that collect
and store PII.

Implementing Specific Controls for PII Requires Additional Actions

Over the past two years, OMB memoranda have highlighted the importance of privacy officers
in Federal agencies, including specific actions intended to better protect PII. OMB memoranda
addressed to heads of agencies and departments, include M-06-16, issued in June 2006, and M-
07-16, issued in May 2007. M-06-16 requires that agencies assess their baseline of privacy
activities and properly safeguard their assets while using information technology to compensate
for the lack of physical security controls when information is removed from, or accessed from
outside the agency location. Specifically, agencies are to review their privacy controls against a
checklist for protection of remote information and implement four additional controls within 45
days of the issuance of the memorandum. M-07-16 requires that agencies develop and
implement a breach notification policy to outline the framework within each agency for ensuring
that the proper safeguards are in place to protect sensitive information within 120 days from the
date of the memorandum. To address increased risk with PII, the use of social security numbers
(SSNs) in agency systems and programs should be carefully reassessed to identify instances in
which collection or use of the SSN is superfluous. OMB requires a plan to guide in the
elimination of unnecessary collection and use of SSNs within 18 months. Although GSA has
made progress toward implementing better safeguards for protecting PII and in meeting new
privacy requirements, additional actions are needed to establish such important controls required
to manage the escalating risks with PII.

OMB Memorandum M-06-16 directed all departments and agencies to take the following
actions: (1) encrypt all data on mobile computers/devices which carry agency data unless the
13
     We confirmed that these updates were applied with a patch in October 2007, as intended.


                                                          10
data is determined to be non-sensitive, in writing, by the agency Deputy Secretary or an
individual he/she may designate in writing; (2) allow remote access only with two-factor
authentication where one of the factors is provided by a device separate from the computer
gaining access; (3) use a “time-out” function for remote access and mobile devices requiring user
re-authentication after 30 minutes of inactivity; and (4) log all computer-readable data extracts
from databases holding sensitive information and verify that each extract including sensitive data
has been erased within 90 days or its use is still required. While the GSA-CIO IT Security
Policy requires that all four requirements from M-06-16 be implemented in GSA’s IT systems,
almost one and a half years after the controls were to be implemented, three of the four
provisions have not been fully implemented. Specifically, GSA has not yet implemented an
encryption solution to force users to encrypt PII stored on GSA user workstations or mobile
devices. GSA is in the process of preparing a deployment schedule for an encryption solution
called Credant. According to officials in the OCIO, the infrastructure is in place to deploy the
solution, and GSA plans to complete a pilot of the technology before the full-scale deployment.
The initial version of Credant that GSA planned to implement did not allow for automatic
encryption of USB devices 14 , however, according to GSA CIO’s office, a new version has
recently been released that has made USB encryption policies easier to implement. GSA plans to
implement this version in the spring of 2008, along with the laptop rollout.                   Without
enforcement of these controls, either automated or through other compensating measures, it is up
to the individual user to ensure that PII is encrypted as required. In addition, two-factor
authentication for electronic portable devices that contain PII, where one of the factors is
provided by a device separate from the computer gaining access, has not yet been implemented.
Rather than investing significant resources to develop and implement a solution for two-factor
authentication that may not be in compliance with Homeland Security Presidential Directive
(HSPD)-12, GSA plans to address this requirement with its HSPD-12 solution. GSA has tested a
two-factor authentication solution and is working on the standard for readers on the desktops and
laptops for a pilot, planned for approximately 50 users. Further, GSA has not implemented the
control requiring that computer-readable data extracts from databases holding PII be logged and
erased within 90 days unless its use is still required, as officials have stated that they are unaware
of any immediate viable solution to implement this control.

In assessing the Agency’s adherence to the security checklist provided with OMB Memorandum
M-06-16, we found that GSA has implemented controls for confirming the identification of PII
protection needs. GSA has also partially implemented controls for verifying the adequacy of
organizational policy and protecting the transportation and remote storage of and remote access
to PII. However, these controls are being provided primarily at the policy and/or procedures
level and have not been fully implemented with GSA’s PII systems and extended IT
infrastructure. Agency-wide responsibility for ensuring that these controls have been
implemented per privacy policy has not yet been established, and GSA has not yet implemented
the following controls: (1) controls enforcing no remote storage/transportation of and no remote
access to PII, when not permitted; (2) controls enforcing that remote transportation/storage of
and remote access to PII be encrypted; and (3) controls enforcing allowed downloading of PII.

Further, OMB Memorandum M-07-16 identified additional controls required for PII and
specifies that responsibility for safeguarding PII is shared by officials accountable for
14
     A USB device is a mobile storage device that could be used to store sensitive information.


                                                           11
administering operational and privacy and security programs, legal counsel, Agencies’ Inspectors
General and other law enforcement, and public and legislative affairs. The memorandum
requires that agencies implement a breach notification policy and outlines a framework to ensure
that the proper safeguards are in place to protect privacy information. It also requires that
agencies reassess the need to collect and use SSNs within IT systems and develop a plan to
eliminate the use and collection of SSNs where superfluous. The Agency has been working to
meet the requirements of M-07-16 and has issued an Information Breach Notification Policy15
via an instructional letter on September 21, 2007 to provide policy on what actions should be
taken when it is determined that PII has been compromised. GSA has identified initial milestones
for collecting information from system owners on whether their system collects SSNs and, if so,
for what purpose. System owners were also asked what impact discontinued use of SSNs may
have on their systems. By the end of December 2007, GSA was to make decisions as to which
specific systems need to continue to collect/use SSNs. GSA recognizes the need to lessen the
use of SSNs but also realizes that some systems will not be able to function without collecting
this data element. While GSA has made initial efforts in determining how to reduce the
collection and use of SSNs, a detailed plan that identifies key activities, milestones, and
performance measures to remove use of SSNs, where superfluous, has not yet been developed.
Although GSA has made progress toward implementing better safeguards for protecting PII and
in meeting new privacy requirements, additional actions are needed to establish required privacy
controls and manage the escalating risks with PII to ensure that PII is not put at risk of
unauthorized or unintentional disclosure.

Conclusion

Within GSA, the CIO and CHCO share responsibility and accountability for developing,
implementing and administering the Agency’s controls for protecting PII. Additionally, the
Office of Acquisition Policy within the OCAO is responsible for developing, coordinating, and
obtaining the required public comments and clearance on FAR clauses related to privacy and the
protection of sensitive personal information. GSA has taken steps toward improving the
protection of PII, including revisions to the GSA IT Security Policy to provide additional
safeguards for PII and the implementation of a Privacy Act Program that identifies roles and
responsibilities for protecting PII. GSA has also established a minimum level of controls
required for Privacy Act systems which address specific PII challenges, including the potential of
unauthorized or unintentional disclosure of privacy information. However, improvements to the
GSA Privacy Act Program are needed to ensure that PII is consistently protected and that risk of
unauthorized or unintentional disclosure to such sensitive information is further reduced.
Employing effective controls to protect PII data across the Agency’s system environment,
whether the information is stored within an information system or on network or removable
storage devices, is necessary to ensure that GSA Associates and contractors have a clear
understanding of both the technical and human aspects of securing privacy information as well as
acknowledging the need to address not only what is required by law but also what is expected by
Agency policy. An effective Privacy Act Program would also verify that required controls have
been implemented and ensure that GSA Associates and contractors have received both basic
privacy awareness training as well as specialized role-based or job-specific training to ensure

15
  For this review, we verified that the Breach Notification Policy has been developed for GSA, but we did not
assess the adequacy of or adherence to the policy.


                                                        12
that those responsible for protecting PII are aware of their responsibilities and the consequences
of not adequately protecting such sensitive information. Further, improvements to ensure
compliance with Agency patch management and system configuration policies and procedures
would better ensure that system database and web application servers that store PII are not
vulnerable to known exploits.         Given their shared responsibility for developing and
implementing controls for the protection of PII, clarification of roles and responsibilities between
the CIO and CHCO regarding verification of the implementation of privacy-related controls
would assist the two offices with managing and monitoring their respective security and privacy
programs and ensure that key components necessary for an effective Privacy Act Program have
been identified, developed, and implemented.

Recommendations

To better manage risks of unauthorized or unintentional disclosure of personally identifiable
information (PII), we recommend that the Chief Human Capital Officer:
    (1) Develop an implementation plan for the Privacy Act Program which identifies key roles,
        responsibilities, milestones, and management performance measures to achieve long-term
        improvement goals.
    (2) Work closely with the Chief Information Officer to establish collaborative agency-wide
        procedures to:
            (a)    Ensure that the Privacy Act Program is integrated with the Agency’s security
                   program and assesses risk with and identifies controls for all PII, including PII
                   residing outside of major IT systems.
            (b)    Periodically assess the need for and potential uses of automated content
                   management and data leakage tools or other procedures to assist in identifying
                   and protecting PII within GSA’s IT and system environment.
            (c)    Confirm that required security hardening guides are being appropriately
                   followed and that identified vulnerabilities are promptly recorded and
                   mitigated for major IT systems that collect and store PII.
            (d)    Implement remaining privacy controls required by M-06-16, including
                   encryption and two-factor authentication for systems maintaining PII.
            (e)    Develop a plan that includes the key activities, milestones, and performance
                   measures necessary to guide GSA in discontinuing the collection and storage
                   of SSNs in IT systems where no longer required.
    (3) Work with the Office of the Chief Acquisition Officer to review contracts in support of
        major IT systems that collect and store PII to ensure that the appropriate privacy clauses
        have been included and that contractors supporting Privacy Act Systems of Records are
        aware of and fulfill their roles and responsibilities for protecting GSA's PII.
    (4) Complete development and implementation of role-based training for GSA Associates
        and contractors who are responsible for protecting sensitive information, including PII.

Management Comments

The CHCO and CIO provided consolidated management comments on March 28, 2008 on
specific audit findings and recommendations in response to our draft report. The comments
indicate a general concurrence with our audit findings and recommendations, and a copy of the



                                                13
comments is included as Appendix D. The CHCO and the CIO agreed with our recommendation
to develop an implementation plan for the Privacy Act Program which identifies key roles,
responsibilities, milestones, and management performance measures to achieve long-term
improvement goals. Management also acknowledged the need to do more to protect PII and
identified planned actions to meet audit recommendations.      Management comments indicate
that the CHCO will work closer with the OCIO to ensure that hardening guides are being
appropriately applied and that the CHCO is working with the Office of Procurement
Management Review, Office of Acquisition Integrity to randomly audit Privacy Act systems to
ensure that the proper FAR clauses are included. In response to our recommendation to
implement remaining privacy controls required by OMB Memorandum M-06-16, management
comments provided additional information on the status of two of the three remaining
requirements. The response also stated that GSA was unaware of a technical means to log all
computer-readable data extracts from databases holding sensitive information and verify that
each extract including sensitive data has been erased within 90 days or its use is still required.
While management comments explained that some manual processes are being used in a limited
capacity to support this requirement, we reaffirm the importance of determining an automated
method to implement this control.

Management comments highlight activities recently completed and planned related to our
recommendation to develop a plan that includes key activities, milestones, and performance
measures necessary to guide GSA is discontinuing the collection and storage of SSNs in IT
systems where no longer required. In response to our recommendation to complete development
and implementation of role-based training for GSA Associates and contractors responsible for
protecting sensitive information, including PII, management comments discuss goals to begin
role-based training and highlight a 95% completion rate of the Privacy Awareness training over
the past year. Management comments in response to our recommendation to assess the need for
and potential uses of automated content management and data leakage tools or other procedures
to assist in identifying and protecting PII within GSA’s IT and system environment explain that
the OCIO is currently evaluating data leakage prevention tools to assist in identifying and
protecting PII within GSA’s IT and system environment. While evaluating automated content
and data leakage tools is a first step toward better protecting PII stored outside of IT systems that
maintain Privacy Act data, our audit found that the Privacy Act Program has not yet ensured that
PII stored on laptops and servers or in databases or applications that are not considered part of a
major IT system is identified and protected as needed. Over the past year we identified
numerous instances where PII stored outside of major IT systems was placed at undue risk.
Therefore, we reaffirm the need to better ensure that all PII in GSA’s IT systems environment be
identified and properly protected from unauthorized access, modification, and disclosure.

Internal Controls

As part of our review, we assessed the effectiveness of the Agency’s Privacy Act Program and
the implementation of controls for the protection of Privacy Act data. This audit included a
review of selected management, operational, and technical controls relating to privacy for three
of GSA’s major IT systems that collect and store PII – FBO, STAR, and CWGT. This report
states in detail the need to strengthen specific controls in order to strengthen the Privacy Act
Program and better implement controls to protect PII.



                                                 14
                                                           IMPROVEMENTS TO THE GSA PRIVACY ACT
                                                            PROGRAM ARE NEEDED TO ENSURE THAT
                                                           PERSONALLY IDENTIFIABLE INFORMATION
                                                               (PII) IS ADEQUATELY PROTECTED
                                                              REPORT NUMBER A060228/O/T/F08007

                                                            Appendix A – GSA Data Collection Instrument

This data collection instrument (DCI) was developed by the FAEC IT Committee of the PCIE/ECIE to assist IGs in determining their agency's compliance with OMB
Memorandum M-06-16. The data collection instrument contains three parts. The first part is based on a security checklist developed by NIST (see Section 1 below). Questions in
the DCI are designed to assess Agency requirements in the memorandum, which are linked to NIST SP 800-53 and 800-53A. Each IG can use the associated checklist and the
relevant validation techniques for their own unique operating environment. Section 2 is the additional actions required by OMB M-06-16. Section 3 should document your overall
conclusion as well as detailed information regarding the type of work completed and the scope of work performed.

For each overall Step and Action Item, please respond yes, no, partial, or not applicable. For no, partial, and not applicable responses, please provide additional information in
the comments sections. After the yes, no, partial, or not applicable response, IG's have the option to provide an overall response using the six control levels as defined below for
the overall Step. Each condition for the lower level must be met to achieve a higher level of compliance and effectiveness. For example, for the control level to be defined as
"Implemented", the Agency must also have policies and procedures in place. The determination of the control level for each step should be based on the responses provided to the
Action Items included in that step.

Controls Not Yet in Place - The answer would be "Controls Not Yet in Place" if the Agency does not yet have documented policy for protecting PII.
Policy - The answer would be "Policy" if controls have been documented in Agency policy.
Procedures - The answer would be "Procedures" if controls have been documented in Agency procedures.
Implemented - The answer would be "Implemented" if the implementation of controls has been verified by examining procedures and related documentation and interviewing
personnel to determine that procedures are implemented.
Monitor & Tested - The answer would be "Monitor and Tested" if documents have been examined & interviews conducted to verify that policies and procedures for the question
are implemented and operating as intended.
Integrated - The answer would be "Integrated" if policies, procedures, implementation, and testing are continually monitored and improvements are made as a normal part of
agency business processes.

                                          PLEASE PROVIDE YOUR RESPONSES USING THE DROP DOWN MENU IN GRAY




                                                                                        A-1
Section One
                                                                Security Controls and Assessment Procedures

     Security Checklist For Personally Identifiable
        Information That Is To Be Transported
           and/ or Stored Offsite, Or That Is To Be
                   Accessed Remotely


                                                                     REQUIRED RESPONSE                                    OPTIONAL                  RESPONSE
                                                                                                          Controls Not Yet in Place
                                                                                Yes                       Policy
                                                                               No                         Procedures
                        Procedure                                             Partial                     Implemented
                                                                          Not Applicable                  Monitor & Tested
                                                                                                          Integrated
 STEP 1: Has the Agency confirmed identification of
personally identifiable information protection needs?
If so, to what level?                                      Yes                                              Procedures
Action Item 1.1: Has the Agency verified information
categorization to ensure identification of personal
identifiable information requiring protection when
accessed remotely or physically removed?                   Yes
Comments: GSA has verified information categorization to ensure identification of PII requiring protection when accessed remotely or physically removed. GSA uses FIPS PUB
199 as guidance for assigning security categorization level within PII systems and has an automated system to help with and provide rigor to the process. Annually, the CPO
requires PIAs be developed for (1) existing PII systems that have undergone a significant change since last year (such as changes in the collection or flow of data, new uses or
disclosure of information, or incorporation of additional data items); (2) new systems containing personal information about members of the general public that have been
developed since last year’s PIA submissions; and (3) all systems with personal information about Federal government employees. The CPO provides a template for use in
completing PIAs for GSA's PII systems.


Action Item 1.2: Has the Agency verified existing risk
assessments?                                              Yes




                                                                                        A-2
Comments: GSA has verified existing risk assessments. For 5 of GSA's 18 PII systems, risk assessments have not yet been updated to address remote access and physical removal
of PII data; however, most of these systems are undergoing certification and accreditation.
OVERALL STEP 1 COMMENTS: GSA has defined PII as “any personal information that is associated with a unique identifier and can be accessed through that identifier. A
personal identifier usually is a name plus another piece of information such as a Social Security Number (SSN), but can be any designation that is unique to a particular person.
Personal information, for Federal government purposes, is any information that is protected by the Privacy Act. This includes personal information collected about public
individuals. It also includes information collected about Federal personnel, with some exceptions for work-related information. In addition to name and SSN, some PII examples
are a name plus home street and e-mail addresses, home and emergency telephone numbers, date of birth, marital status, race, sex, national origin, qualifications, medical history,
private sector employment history, financial and credit records, grievances and appeals, legal and arrest records, and information about some (but not all) personnel actions.” GSA
has identified 18 PII systems and designated each PII system as a moderate impact system. GSA has verified information categorization to ensure identification of PII requiring
protection when accessed remotely or physically removed and verified existing risk assessments.



                                                                                     REQUIRED RESPONSE                                OPTIONAL                 RESPONSE
                                                                                                                               Controls Not Yet in Place
                                                                                                Yes                            Policy
                                                                                                No                             Procedures
                              Procedure                                                        Partial                         Implemented
                                                                                           Not Applicable                      Monitor & Tested
                                                                                                                               Integrated

STEP 2: Has the Agency verified the adequacy of organizational                                                                 Policy
policy? If so, to what level?                                          Partial
Action Item 2.1: Has the Agency identified existing organizational
policy that addresses the information protection needs associated with
personally identifiable information that is accessed remotely or
physically removed?                                                    Yes
Comments: GSA has verified the adequacy of organizational policy. Recent joint policy from the CIO and CPO establishes requirements for remote access to and physical
removal of PII; however, there is no enforcement of these controls.




                                                                                       A-3
Action Item 2.2: Does the existing Agency organizational policy address the
information protection needs associated with personally identifiable
information that is accessed remotely or physically removed?                        Partial
        1. For Personally Identifiable Information physically removed:
           a. Does the policy explicitly identify the rules for determining
whether physical                                                                    Yes
                removal is allowed?
             b. For personally identifiable information that can be removed, does
the policy                                                                          Partial
              require that information be encrypted and that appropriate
procedures, training
             and accountability measures are in place to ensure that remote
use of this
             encrypted information does not result in bypassing the protection
provided by
              the encryption?


        2. For Personally Identifiable Information accessed remotely:
           a. Does the policy explicitly identify the rules for determining
whether remote                                                                      Partial
               access is allowed?


             b. When remote access is allowed, does the policy require that this
access be                                                                           No
              accomplished via a virtual private network (VPN) connection
established using
               agency-issued authentication certificate(s) or hardware tokens?




                                                                                              A-4
           c. When remote access is allowed, does the policy identify the rules
for                                                                               Yes
              determining whether download and remote storage of the
information is
              allowed? (For example, the policy could permit remote access to
a database,
               but prohibit downloading and local storage of that database.)
Comments: Policy states that an employee shall not remove PII from GSA facilities (including GSA managed programs housed at contractor facilities under contract), or
accessed remotely, without written permission from the employee’s supervisor, the data owner, and the IT system authorizing official. This applies to electronic media (e.g.
laptops, Blackberries, USB drives), paper, and any other media (e.g., CDs/DVDs) that may contain PII. Policy states that if it is a business requirement to store PII on GSA user
workstations or mobile devices including, but not limited to notebook computers, USB drives, CD-ROMs/DVDs, personal digital assistants and Blackberries, PII must be
encrypted using an approved NIST algorithm, i.e., 3DES or AES. Certified encryption modules must be used to the greatest extent possible in accordance with FIPS PUB 140-2.
Recommended methods of file encryption are also provided. Policy requires PII e-mailed within the GSA network or transmitted over the Internet to be encrypted. Basic privacy
training has been provided to almost 80% of GSA Associates and contractors; however, this training does not instruct employees and contractors on how to implement or use
encryption technologies during remote access or physical removal of data on mobile devices. Policy states that the Authorizing Official or their designee must grant remote
access (i.e. external to GSA’s network) privileges only to those GSA Associates and contractors with a legitimate need for such access as approved; however, there is no clear
criteria for determination of remote access authorization. GSA has implemented a VPN solution for remote access but utilizes user name and password for authentication rather
that an agency-issued certificate or a hardware token. Policy requires sensitive data on mobile storage devices that are removed from GSA premises be password protected or
encrypted. While policy addresses the requirements for remote access to and physical removal of PII data, controls are not enforced to ensure compliance with established policy.


Action Item 2.3: Has the organizational policy been revised or developed as
needed, including steps 3 and 4?                                                  Yes
Comments:


OVERALL STEP 2 COMMENTS: GSA has verified the adequacy of organizational policy and updated policy as needed; however, GSA does not perform any checks to ensure
that policies and procedures established for the protection of PII are consistently implemented. There is no clear criteria stated for determination of remote access authorization,
and the Privacy Act training currently deployed by GSA does not instruct employees and contractors on how to implement or use encryption technologies during remote access or
physical removal of data on mobile devices. GSA uses a VPN for remote access but does not use an agency-issued certificate or hardware token for authentication.




                                                                                        A-5
                                                                                                                                                        OPTIONAL
                                                                                                  REQUIRED RESPONSE                                     RESPONSE
                                                                                                                                           Controls Not Yet in Place
                                                                                                           Yes                             Policy
                                                                                                           No                              Procedures
                                   Procedure                                                              Partial                          Implemented
                                                                                                      Not Applicable                       Monitor & Tested
                                                                                                                                           Integrated
STEP 3: Has the Agency implemented protections for personally
identifiable information being transported and/or stored offsite? If so, to
what level?                                                                     Partial                                                    Policy
Action Item 3.1: In the instance where personally identifiable information is
transported to a remote site, have the NIST Special Publication 800-53 security
controls ensuring that information is transported only in encrypted form been
implemented?                                                                    Partial

      * Evaluation could include an assessment of tools used to transport PII
for use of encryption.
Comments: Policy states that an employee shall not remove PII from GSA facilities (including GSA managed programs housed at contractor facilities under contract), or
accessed remotely, without written permission from the employee’s supervisor, the data owner, and the IT system authorizing official. This applies to electronic media (e.g.
laptops, Blackberries, USB drives), paper, and any other media (e.g., CDs/DVDs) that may contain PII. Policy states that if it is a business requirement to store PII on GSA user
workstations or mobile devices including, but not limited to notebook computers, USB drives, CD-ROMs/DVDs, personal digital assistants and Blackberries, PII must be
encrypted using an approved NIST algorithm, i.e., 3DES or AES. Certified encryption modules must be used to the greatest extent possible in accordance with FIPS PUB 140-2.
Recommended methods of file encryption are also provided. Policy requires PII e-mailed within the GSA network or transmitted over the Internet to be encrypted. While policy
addresses the requirements for transportation of PII data, controls for encryption of transportation of GSA PII are not enforced to ensure compliance with established policy.

Action Item 3.2: In the instance where PII is being stored at a remote site, have
the NIST SP 800-53 security controls ensuring that information is stored only
in encrypted form been implemented?                                               Partial

       * Evaluation could include a review of remote site facilities and
operations.




                                                                                            A-6
Comments: Policy states that an employee shall not remove PII from GSA facilities (including GSA managed programs housed at contractor facilities under contract), or
accessed remotely, without written permission from the employee’s supervisor, the data owner, and the IT system authorizing official. This applies to electronic media (e.g.
laptops, Blackberries, USB drives), paper, and any other media (e.g., CDs/DVDs) that may contain PII. Policy states that if it is a business requirement to store PII on GSA user
workstations or mobile devices including, but not limited to notebook computers, USB drives, CD-ROMs/DVDs, personal digital assistants and Blackberries, PII must be
encrypted using an approved NIST algorithm, i.e., 3DES or AES. Certified encryption modules must be used to the greatest extent possible in accordance with FIPS PUB 140-2.
Recommended methods of file encryption are also provided. Policy requires PII e-mailed within the GSA network or transmitted over the Internet to be encrypted. While policy
addresses the requirements for storage of PII data, controls for encryption of remote storage of GSA PII are not enforced to ensure compliance with established policy.
OVERALL STEP 3 COMMENTS: While policy addresses the requirements for transportation and remote storage of PII data, controls for encryption of transportation of GSA
PII are not enforced to ensure compliance with established policy.


   If personally identifiable information is to be transported and/or stored
                                    offsite

           follow Action Item 4.3, otherwise follow Action Item 4.4


                                                                                                                                                         OPTIONAL
                                                                                             REQUIRED RESPONSE                                           RESPONSE
                                                                                                                                            Controls Not Yet in Place
                                                                                                         Yes                                Policy
                                                                                                        No                                  Procedures
                               Procedure                                                               Partial                              Implemented
                                                                                                   Not Applicable                           Monitor & Tested
                                                                                                                                            Integrated
                                                                         Partial
STEP 4: Has the Agency implemented protections for remote access
to personally identifiable information? If so, to what level?                                                                               Policy

Action Item 4.1: Have NIST Special Publication 800-53 security controls
requiring authenticated, virtual private network (VPN) connection been
implemented by the Agency?                                              Yes
       * Evaluation could include a review of the configuration of VPN
application(s).
Comments: GSA has implemented a VPN solution for remote access utilizing user name and password for authentication.




                                                                                       A-7
Action Item 4.2: Have the NIST Special Publication 800-53 security
controls enforcing allowed downloading of personally identifiable
information been enforced by the Agency?                                 No
         * Evaluation could include a review of controls for
downloading PII.
Comments: Policy was recently updated to require that creation of computer-readable data extracts that include PII shall be maintained in an official log including creator, date,
type of information, and user. However, this control has not been implemented and is not enforced. GSA has not yet established a plan to verify each extract including sensitive
data has been erased within 90 days or its use is still required. Officials stated that they are unaware of any immediate viable solution to implement this control across GSA’s PII
systems.
    If remote storage of personally identifiable information is to be
                            permitted follow
           Action Item 4.3, otherwise follow Action Item 4.4.


Action Item 4.3: Have the NIST Special Publication 800-53 security
controls enforcing encrypted remote storage of personally identifiable
information been implemented by the Agency?                              No


Comments: Policy requires that (1) PII shall not be stored on or accessed from personally owned computers or personally owned mobile devices; (2) PII shall only be accessed
from government furnished equipment (GFE) or contractor maintained computers configured in accordance with GSA IT security policy and technical security standards; and (3)
if it is a business requirement to store PII on GSA user workstations or mobile devices including, but not limited to notebook computers, USB drives, CD-ROMs/DVDs, personal
digital assistants and Blackberries, PII must be encrypted using an approved NIST algorithm, i.e., 3DES or AES. Without automated enforcement of this policy, verification and
enforcement of this control is not possible.
Action Item 4.4: Has the Agency enforced NIST Special Publication
800-53 security controls enforcing no remote storage of personally
identifiable information?                                                 No

Comments: GSA has no mechanism in place that can monitor or control the storage and encryption of PII data when remote storage is permitted.
OVERALL STEP 4 COMMENTS: GSA has implemented a VPN solution for remote access utilizing user name and password for authentication. While policy addresses the
requirements for transportation and remote storage of PII data, controls for encryption of transportation of GSA PII are not enforced to ensure compliance with established policy.
GSA has not implemented controls enforcing allowed downloading of PII or enforcing and encryption of remote storage of PII. GSA has also not implemented controls enforcing
no remote storage of PII when not permitted.
(The source for all the control steps above is NIST SP 800-53 and SP 800-53A assessment procedures.)




                                                                                        A-8
Section Two


                                   Additional Agency Actions Required by OMB M-06-16


                                                                                                                                                           Yes
                                                                                                                                                           No
                                                           Procedure                                                                                     Partial
                                                                                                                                                     Not Applicable


1. Has the Agency encrypted all data on mobile computers/devices which carry agency data unless the data is determined to be
non-sensitive, in writing by Agency Deputy Secretary or an individual he/she may designate in writing?                       Partial
Comments: Policy regarding encryption of data on mobile computers/devices has been limited to only address PII. Policy states that PII shall not be stored on or accessed from
personally owned computers or personally owned mobile devices, and PII shall only be accessed from government furnished equipment or contractor maintained computers
configured in accordance with GSA IT security policy and technical security standards. Policy also states that PII shall be stored on network drives and/or in application
databases with proper access controls (i.e., user ID/password) and shall be made available only to those individuals with a valid need to know. Policy states that if it is a business
requirement to store PII on GSA user workstations or mobile devices including, but not limited to notebook computers, USB drives, CD-ROMs/DVDs, personal digital assistants
and Blackberries, PII must be encrypted using an approved NIST algorithm, i.e., 3DES or AES. Certified encryption modules must be used to the greatest extent possible in
accordance with FIPS PUB 140-2, Security Requirements for Cryptographic Modules. Recommended methods of encryption are also provided. This policy was just implemented.
Without automated enforcement of this policy, it is up to the individual user to comply. The Agency is beginning a pilot of full disk encryption and plans to begin phased
implementation of encrypting all data on laptops in the first quarter of FY07 with complete implementation by the first quarter of FY08. Once full disk encryption is implemented,
users will be forced to comply with established policy.
2. Does the Agency use remote access with two-factor authentication where one of the factors is provided by a device separate
from the computer gaining access?                                                                                             No
Comments: GSA has not implemented two-factor authentication, where one of the factors is provided by a device separate from the computer gaining access. Rather than
investing significant resources to develop and implement a solution for two-factor authentication that will not be in compliance with Homeland Security Presidential Directive
(HSPD)-12, GSA plans to address this requirement with its HSPD-12 solution next year.
3. Does the Agency use a “time-out” function for remote access and mobile devices requiring user re-authentication after 30
minutes inactivity?                                                                                                               Partial
Comments: Policy requires that all remote access connections and mobile devices shall automatically lock-out within 30 minutes of inactivity. However, a test of this control found
that this control was not implemented consistently. We tested four of GSA's 18 PII systems and found that users were only timed out with two of the systems.




                                                                                         A-9
4. Does the Agency log all computer-readable data extracts from databases holding sensitive information and verifies each
extract including sensitive data has been erased within 90 days or its use is still required?                                     No
Comments: Policy was recently updated to require that creation of computer-readable data extracts that include PII shall be maintained in an official log including creator, date,
type of information, and user. However, this control has not been implemented and is not enforced. GSA has not yet established a plan to verify each extract including sensitive
data has been erased within 90 days or its use is still required. Officials stated that they are unaware of any immediate viable solution to implement this control across GSA’s PII
systems.




                                                                                       A-10
Section Three

To assist the PCIE/ECIE in evaluating the results provided by individual IGs
and in creating the government-wide response, please provide the following
information:
Type of work completed (i.e., assessment, evaluation, review, inspection, or
                                                                                                                                                         Assessment
audit).

                                                                              During this assessment, we used the President’s Council on Integrity and Efficiency
                                                                              (PCIE)/Executive Council on Integrity and Efficiency (ECIE) review guide and data collection
                                                                              instrument to direct our work. We interviewed appropriate staff from GSA’s Offices of the Chief
                                                                              People Officer (CPO) and Chief Information Officer (CIO) with key responsibilities for ensuring
                                                                              the protection of Agency sensitive information. We gathered information related to actions GSA
                                                                              has taken to protect personally identifiable information (PII) prior to and in response to the Office
                                                                              of Management and Budget (OMB) Memorandum M-06-16 and considered recently developed
                                                                              Agency policy regarding the protection of sensitive information. We considered the Agency’s
                                                                              mandatory on-line training, information disseminated through the privacy program website, and
Scope and methodology of work completed based on the PCIE/ECIE review the Agency report on the activities taken to meet the requirements of M-06-16. We also reviewed
guide Step 2 page 4. (Please address the coverage of your assessment, and     a GSA report responding to OMB Memorandum M-06-20 and Section 522 of the Transportation,
include any comments you deem pertinent to placing your results in the proper Treasury, Independent Agencies, and General Government Appropriations Act, 2005. We tested
context.)                                                                     select controls for a sample of PII systems to determine whether the 30-minute timeout
                                                                              requirement had been implemented. We reviewed select security and privacy documentation
                                                                              developed for seven PII systems. We also followed up on previously issued audit work by
                                                                              reviewing the list of Systems of Records for accuracy and completeness and developing a timeline
                                                                              documenting major steps and milestones directed at implementing controls for sensitive
                                                                              information.

                                                                                 We met with the Chief Privacy Officer and the Chief Information Officer on September 21, 2006,
                                                                                 who generally concurred with the results of our assessment and responses to the PCIE/ECIE data
                                                                                 collection instrument.




                                                                                      A-11
                                                     Assessment Methodologies Used to complete the DCI Sections

                                                                                                    Mark All That Apply


                                                                                      Section One
                                                                                                                                      Section Two
                                                    Step                                                                  Step Step
                                                     1                               Step 2                                3    4

Interviews (G/F/C)                                   C                                  C                                  C    C         C

Examinations (G/F/C)                                 F                                  F                                  F    F         F

Tests (independently verified - Y/N)                 N                                  N                                  N    N         Y




Assessment Method Descriptions consistent with NIST SP 800-53A - Appendix D pages 34 - 36.
G = Generalized. F = Focused. C = Comprehensive.
Y = Yes. N = No.




                                                                                A-12
                                                   GSA has recently defined personally identifiable information (PII) for Agency systems and taken steps toward
                                                   improving the protection of PII. The Agency’s Chief Privacy Officer (CPO) and Chief Information Officer (CIO)
                                                   have recently issued a joint instruction letter establishing policy regarding requirements for safeguarding PII. Basic
                                                   privacy training has also provided the majority of Associates and contractors. System Owners for 18 systems that
                                                   store or process PII have reported on compliance with the security checklist included with OMB Memorandum M-06-
                                                   16 to the CIO. Systems within GSA containing PII have been designated with moderate level risk. However, all of
                                                   the requirements of Office of Management and Budget (OMB) Memorandum M-06-16 have not been satisfied.

                                                   The privacy guidance issued by the CPO and CIO covers two of the four recommendations in OMB Memorandum M-
                                                   06-16. Specifically, since officials are unaware of any immediate viable solution to implement controls to verify each
                                                   extraction of sensitive data has been erased within 90 days or its use is still required, GSA could not implement this
                                                   recommendation. Additionally, rather than investing significant resources to implement a two-factor authentication
                                                   solution that would be replaced by a Homeland Security Presidential Directive (HSPD)-12 compliant solution planned
                                                   for implementation early next year, GSA decided not to meet the recommendation for implementing two-factor
                                                   authentication for remote access at this time but with its HSPD-12 solution. Within GSA, the joint policy establishes
                                                   requirements for encrypting PII on removable media and GSA workstations, but without automated enforcement of
                                                   this policy, verification of this control is not yet possible. The Agency also plans to begin phased implementation of
                                                   full disk encryption for GSA workstations and laptops next year. The recent policy also requires all remote access
Overall Summary Statement. (Please refer to page   connections and mobile devices to be automatically locked out within 30 minutes of inactivity; however, tests of PII
five of the review guide for sample language for   systems found that only two of the four systems had implemented this control.
summary statements.)
                                                   In assessing the Agency’s implementation of the security checklist, we found that GSA has implemented controls for
                                                   confirming the identification of PII protection needs. GSA has also partially implemented controls for verifying the
                                                   adequacy of organizational policy and protecting the transportation and remote storage of and remote access to PII.
                                                   However, these controls are being provided primarily at the policy and/or procedures level and have not been fully
                                                   implemented with GSA’s PII systems. Agency-wide responsibility for ensuring that these controls have been
                                                   implemented per privacy policy has not yet been established, and GSA has not yet implemented the following
                                                   controls: (1) controls enforcing no remote storage/transportation of and no remote access to PII, when not permitted;
                                                   (2) controls enforcing that remote transportation/storage of and remote access to PII be encrypted; (3) controls
                                                   enforcing allowed downloading of PII.

                                                   Our assessment indicates that the Agency needs to improve policies and procedures for the protection of sensitive
                                                   information in the following areas: (1) establish and communicate accountability and responsibility for specific
                                                   privacy controls, including the implementation of technologies used to collect, use, store, and disclose information in
                                                   identifiable form to allow for continuous auditing of compliance with established privacy policies, (2) improve
                                                   privacy training to address OMB Memorandum M-06-16 requirements regarding the protection of remote access,
                                                   storage, and transportation of PII; (3) obtain input from all Service and Staff Offices to ensure the Agency’s definition
                                                   of PII is comprehensive and that Associates and contractors fully recognize what information is considered PII, and
                                                   (4) improve reporting for security weaknesses for PII systems and within the GSA privacy program.




                                                                            A-13
                IMPROVEMENTS TO THE GSA PRIVACY ACT
                 PROGRAM ARE NEEDED TO ENSURE THAT
                PERSONALLY IDENTIFIABLE INFORMATION
                    (PII) IS ADEQUATELY PROTECTED
                   REPORT NUMBER A060228/O/T/F08007

       Appendix B – Timeline of GSA Activities Related to Privacy Controls

   Date                                        Event
December 2002      E-Government Act of 2002 signed.
                   CPO issues GSA guidance on ensuring security and privacy of personal
May 2003
                   information.
October 2003       GSA Privacy Act Program Order issued.
May 2004           GSA CPO Issues Guidelines on Conducting PIAs.
                   Public Law 108-447 – Transportation, Treasury, Independent Agencies,
December 2004      and General Government Appropriations Act of 2005 identifies Agency
                   and IG requirements for Privacy Reviews.
                   CPO Memo issued on GSA Privacy Act regulations and Systems Of
June 2005
                   Records (SOR) notices.
August 2005        Submitted Privacy portion of the FY05 FISMA report to OCIO.

December 2005      GSA PIAs posted on gsa.gov.
                   CPO Memo reminds employees of their responsibilities for
May 2006
                   safeguarding personally identifiable information.
                   OMB M-06-15 on Safeguarding Personally Identifiable Information
                   issued.
June 2006          Privacy Training 101 Available on GSA Online University.
                   OMB M-06-16 on Protection of Sensitive Agency Information requires
                   specific privacy controls.
                   OMB M-06-19 on Reporting Incidents Involving Personally
July 2006          Identifiable Information and Incorporating the Cost for Security in
                   Agency Information Technology Investments issued.
                   OMB M-06-20 FY06 Reporting Instructions for FISMA and Agency
                   Privacy Management issued.




                                       B-1
   Date                                       Event
                 CIO issued IL-06-02, Safeguarding Personally Identifiable Information
August 2006      (PII), regarding safeguarding PII in GSA IT systems and any associated
                 record of that information.
                 GSA Privacy Act Program website launched on gsa.gov.
                 GSA Privacy Act Benchmark report in response to Public Law 108-
                 447, Section 522.
                 Agency submitted FY 06 FISMA report, which included questions
October 2006
                 related to privacy, to OMB.
                 OMB M-07-16 on Safeguarding Against and Responding to the Breach
May 2007
                 of Personally Identifiable Information issued.
                 GSA IT Security Policy revised to include Privacy requirements. This
June 2007        policy canceled CIO Instructional Letter 06-02, Safeguarding
                 Personally Identifiable Information (PII).
                 Agency submitted to OMB the FY 07 FISMA report, including a
September 2007
                 response to specific questions related to privacy.




                                     B-2
                      IMPROVEMENTS TO THE GSA PRIVACY ACT
                       PROGRAM ARE NEEDED TO ENSURE THAT
                      PERSONALLY IDENTIFIABLE INFORMATION
                          (PII) IS ADEQUATELY PROTECTED
                         REPORT NUMBER A060228/O/T/F08007

                         Appendix C –Vulnerability Scanning Results

Due to the sensitive nature of information contained in this appendix, only reports provided to
system security officials and the GSA Senior Agency Information Security Officer contain
detailed vulnerability scanning results for the three Privacy Act Systems of Records tested during
this review. Requests for the details of technical vulnerability scanning results should be
referred to Jennifer Klimes, Audit Manager, or Gwendolyn McGowan, Deputy Assistant
Inspector General for IT Audits.




                                               C-1
       IMPROVEMENTS TO THE GSA PRIVACY ACT
        PROGRAM ARE NEEDED TO ENSURE THAT
       PERSONALLY IDENTIFIABLE INFORMATION
           (PII) IS ADEQUATELY PROTECTED
          REPORT NUMBER A060228/O/T/F08007

Appendix D – CHCO/CIO Consolidated Response to Draft Report




                           D-1
D-2
D-3
                      IMPROVEMENTS TO THE GSA PRIVACY ACT
                       PROGRAM ARE NEEDED TO ENSURE THAT
                      PERSONALLY IDENTIFIABLE INFORMATION
                          (PII) IS ADEQUATELY PROTECTED
                         REPORT NUMBER A060228/O/T/F08007

                         APPENDIX E – REPORT DISTRIBUTION


                                                                                  Copies

With Appendix C

Office of the Chief Human Capital Officer (C)                                      3

Office of the Chief Information Officer (I)                                        3

       Office of the Senior Agency Information Security Officer (IS)               1

Office of Acquisition Policy (MV)                                                  1

Authorizing Official for STAR                                                      1

Authorizing Official for FBO                                                       1

Authorizing Official for CWGT                                                      1

Information Systems Security Manager for STAR                                      1

Information Systems Security Manager for FBO                                       1

Information Systems Security Manager for CWGT                                      1

Information Systems Security Officer for STAR                                      1

Information Systems Security Officer for FBO                                       1

Information Systems Security Officer for CWGT                                      1

Without Appendix C

Counsel to the Inspector General (JC)                                              1

Assistant Inspector General for Auditing (JA and JAO)                              2

Deputy Assistant Inspector General for Finance and Administrative Audits (JA-F)    1



                                                E-1
Assistant Inspector General for Investigations (JI)   1

Internal Control and Audit Division (BEI)             1

Administration and Data System Staff (JAS)            1




                                               E-2
